Audit
Report
       REPORTING THE COST OF MILITARY PERSONNEL
             ASSIGNED TO DEFENSE AGENCIES



Report No. D-2002-002                  October 2, 2001



             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this audit report, visit the Inspector General, DoD
Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
fax (703) 604-8932. Ideas and requests can also be mailed to:
                  OAIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                          Arlington, VA 22202-4704

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
The identity of each writer and caller is fully protected.
                       Office of the Inspector General, DoD
Report No. D-2002-002                                                  October 2, 2001
  (Project No. D2001FC-0110)

                   Reporting the Cost of Military Personnel
                        Assigned to Defense Agencies

                               Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD and other Government
agencies to prepare annual audited financial statements. Although not required by the
Federal Financial Management Act, DoD believes that progress in achieving a
favorable audit opinion to the DoD Agency-wide financial statements can be achieved if
selected Defense agencies prepare annual stand-alone financial statements audited by
certified public accounting firms. Therefore, in FY 2000, DoD required nine Defense
agencies to prepare stand-alone financial statements. Of the nine Defense agencies, five
had military personnel costs that were not recognized in the required financial
statements.

Objectives. The primary audit objective was to determine whether Defense agencies
required to prepare financial statements in support of the Chief Financial Officers Act
accurately reported the cost of military personnel assigned. We also evaluated
applicable guidance for reporting the cost of military personnel and reviewed potential
costs to ensure that those costs are properly and consistently reported.

Results. Defense agencies receiving appropriated funds and required to prepare annual
stand-alone financial statements did not include the cost of military personnel in their
financial statements. Also, the FY 2000 financial statements for the Military
Departments did not show that unreimbursed costs of military personnel assigned to
Defense agencies were included in the reported cost for the Military Departments
General Funds. As a result, the cost of military personnel assigned to five Defense
agencies required to prepare stand-alone financial statements in FY 2000 was
understated by approximately $144 million. The costs to be reported on the FY 2001
financial statements for the Military Departments could also be overstated by at least
$811 million and understated by the same amount for the Other Defense Organizations-
General Funds reporting entity. These amounts do not materially affect the total
program costs and financial statements of the Military Departments. However, the
financial statements for two of the five Defense agencies reviewed may be materially
affected if the cost of military personnel assigned is excluded.
Summary of Recommendations. We recommend that the Under Secretary of Defense
(Comptroller) revise DoD Regulation 7000.14-R, “Financial Management Regulation”
to:

       •   address the computation and reporting of the cost of military personnel
           assigned to Defense agencies, and

       •   require the Military Departments to remove the cost of military personnel
           assigned to Defense agencies without reimbursement and included with
           Other Defense Organizations; or disclose such estimated costs in an
           appropriate footnote to the financial statements.

Management Comments. The Defense Advanced Research Projects Agency provided
unsolicited comments and suggested that the recommendation be clarified to ensure that
the cost of all military personnel be properly included or removed, as necessary, in the
appropriate financial statements. The Under Secretary of Defense (Comptroller) did
not comment on the report.

Audit Response. We clarified our recommendation to reflect the concerns of the
Defense Advanced Research Projects Agency’s comments. We also request that the
Under Secretary of Defense (Comptroller) provide comments on the final report by
November 1, 2001.




                                           ii
Table of Contents

Executive Summary                                 i


Introduction
     Background                                   1
     Objectives                                   2

Finding
     Reporting the Cost of Military Personnel    3

Appendixes
     A. Audit Process                            10
          Scope and Methodology                  10
          Prior Coverage                         11
     B. Report Distribution                      12


Management Comments
     Defense Advanced Research Projects Agency   15
Background
    Public Law 101-576, the “Chief Financial Officers Act of 1990,” November 15,
    1990, as amended by Public Law 103-356, the “Federal Financial Management
    Act of 1994,” October 13, 1994, requires DoD and other Government agencies
    to prepare annual audited financial statements. The Inspector General, DoD, is
    responsible for auditing the DoD Agency-wide financial statements.

    Other Defense Organizations. The DoD Agency-wide financial statements
    include two reporting entities for Other Defense Organizations: “Other Defense
    Organizations–General Funds” and “Other Defense Organizations–Working
    Capital Funds.” Those entities represent consolidation of financial information
    from various Defense organizations and funds that use Treasury Index
    Symbol 97. The entities are considered “entities” for reporting purposes only in
    the annual financial statements required by the Chief Financial Officers Act.
    Other Defense Organizations include numerous Defense agencies that are
    authorized and assigned military personnel from the Military Departments.
    Defense agencies receiving appropriated funds do not reimburse the Military
    Departments for the military personnel assigned. However, Working Capital
    Funds are required to reimburse the Military Departments for use of military
    labor.

    Defense Agencies Required to Prepare Stand-alone Annual Financial
    Statements. The Office of Management and Budget does not require Defense
    agencies to prepare audited stand-alone financial statements. However, DoD
    believes that progress can be achieved if selected Defense agencies prepare
    annual stand-alone financial statements that are audited by certified public
    accounting firms. Accordingly, DoD Regulation 7000.14-R, “Financial
    Management Regulation,” volume 6B, “Form and Content of the Department of
    Defense Audited Financial Statements,” October 2000, requires the following
    nine Defense agencies to prepare stand-alone annual statements.

           • Defense Logistics Agency,

           • Defense Finance and Accounting Service,

           • Defense Information Systems Agency,

           • Defense Contract Audit Agency,

           • Ballistic Missile Defense Organization,

           • Defense Advance Research Projects Agency,

           • Defense Commissary Agency,

           • Defense Security Service, and

           • Defense Threat Reduction Agency.




                                       1
Objectives
     Objectives. The primary audit objective was to determine whether Defense
     agencies required to prepare financial statements in support of the Chief
     Financial Officers Act accurately reported the cost of military personnel
     assigned. We also evaluated applicable guidance for reporting the cost of
     military personnel and reviewed potential costs to ensure that those costs are
     properly and consistently reported. Appendix A discusses the audit scope and
     methodology.




                                         2
           Reporting the Cost of Military Personnel
           Defense agencies receiving appropriated funds and required to prepare
           annual stand-alone financial statements did not include the cost of
           military personnel in their financial statements. Also, the FY 2000
           financial statements for the Military Departments and the DoD Agency-
           wide financial statements did not show that military personnel assigned
           to Defense agencies were included in the reported cost for the Military
           Departments General Funds. Those conditions occurred because DoD
           Regulation 7000.14-R did not include guidance on:

                   •   how Defense agencies should report the cost of military
                       personnel provided to their organizations by the Military
                       Departments, and

                   •   how the Military Departments should report the cost of
                       military personnel assigned to Defense agencies on a non-
                       reimbursable basis.

           As a result, the cost of military personnel assigned to five Defense
           agencies required to prepare stand-alone financial statements in FY 2000
           was understated by approximately $144 million. The costs to be
           reported on the FY 2001 financial statements for the Military
           Departments could also be overstated by at least $811 million and
           understated by the same amount for the Other Defense Organizations–
           General Funds reporting entity. These amounts do not materially affect
           the total program costs and financial statements of the Military
           Departments. However, the financial statements for two of the five
           Defense agencies reviewed may be materially affected if the cost of
           military personnel assigned is excluded.

Regulatory Guidance on Recognizing and Reporting the Cost
of Military Personnel
    Federal Accounting Standards Advisory Board Guidance. Statement of
    Federal Financial Accounting Standards No. 4, “Managerial Cost Accounting
    Concepts and Standards for the Federal Government,” July 31, 1995, states that
    an entity should recognize in its accounting records the full cost of those goods
    or service provided to another entity, regardless of whether full reimbursement
    is received. The full cost of the goods or services provided should also be
    reported to the receiving entity by the providing entity. The Statement of
    Federal Financial Accounting Standard No. 4. also provides general criteria to
    help in determining the types of inter-entity costs that should or should not be
    recognized.

    DoD Guidance on Recognizing the Cost of Military Personnel Assigned to
    Defense Agencies. DoD has different policies on how to include the cost of
    military personnel assigned to Defense agencies that have general fund activities
    and working capital fund activities. DoD Regulation 7000.14-R, volume 11A,
    chapter 1, September 1997, states that the applicable Military Personnel
    Appropriation shall fund the cost of direct and indirect military labor incurred in

                                         3
          the performance of a service or to the furnishing of materials to another DoD
          entity. Therefore, the cost of military labor shall not be charged to another
          DoD entity except for the cost of military personnel assigned to Defense
          Working Capital Fund organizations. DoD Regulation 7000.14-R, volume 11B,
          chapter 62, December 1994, requires Defense Working Capital Funds to
          reimburse for the cost of military personnel assigned, using civilian equivalency
          rates.

          Civilian equivalency rates are established and provided by the Under Secretary
          of Defense (Comptroller) and are calculated by multiplying the current general
          schedule of civilian pay rates plus a fringe benefit factor. The civilian
          equivalency rates do not include the full cost of military personnel because
          military personnel are subject to military duties and responsibilities that may not
          directly benefit Defense agencies. The civilian equivalency rate policy
          recognizes that if the military requirements did not exist, some positions now
          staffed by military personnel could be staffed with civilians at a lower cost.

          DoD Guidance on Reporting Costs in Financial Statements. DoD Regulation
          7000.14-R, volume 6B, chapter 5, October 2000, requires reporting entities to
          include the full costs of the program outputs on the Statement of Net Cost. The
          costs of program outputs should include the costs of services provided by other
          entities whether or not the providing entity is fully reimbursed.


Reporting the Cost of Military Personnel Assigned to Defense
Agencies
          In a January 13, 2000, memorandum, the Under Secretary of Defense
          (Comptroller) directed nine Defense agencies to prepare financial statements and
          arrange for Certified Public Accounting firms to perform the financial statement
          audits. Five of the nine agencies had military personnel authorized and assigned
          and received annual appropriations from Congress.* However, those agencies
          did not report the costs of the military personnel assigned to their organizations.
          Table 1 shows the calculated annual costs, using the civilian equivalency rates,
          of the military personnel assigned to the five Defense agencies as of May 2001.
          Table 1 also shows total program costs reported on the FY 2000 financial
          statements.




*
    The remaining four agencies included the Defense Finance and Accounting Service and the
    Defense Commissary Service, which were working capital fund entities; the Defense Contract
    Audit Agency, which did not have military personnel assigned; and the Defense Security
    Service, which used temporary military reserve personnel whose costs were reimbursed.

                                                4
         Table 1. Cost of Military Personnel Assigned to Selected Defense
            Agencies Compared to FY 2000 Reported Program Costs
                                  ($ in thousands)

                                                                        Total
                                       Military Personnel              Program
         Defense Agency               Assigned1     Costs               Costs          Percent
Defense Information Systems                1,639    $ 76,658            $ 1,628,3542       4.71
 Agency
Defense Threat Reduction                     872       52,409              794,846         6.59
 Agency
Defense Logistics Agency3                     33        1,267            1,061,2342        0.12

Ballistic Missile Defense                    129       11,772            4,661,868         0.25
 Organization
Defense Advanced Research                     16        1,565            1,943,901         0.08
 Projects Agency4
  Total Costs                                       $143,671



     1
         We assumed that the military personnel assigned as of May 2001 were the average
         personnel assigned for FY 2000.
     2
         Those Defense agencies also have working capital fund entities. Those costs were not
         included.
     3
         This agency did not prepare FY 2000 financial statements. In March 2000 the Defense
         Contract Management Command, a sub-command of the Defense Logistics Agency
         became a separate agency. The Defense Logistics Agency transferred 630 Military
         Personnel authorizations to the new Defense Contract Management Agency, which is not
         required to prepare stand-alone financial statements. The costs shown represent total
         reported program costs for the Defense Logistics Agency after deducting the costs
         identified with the Defense Contract Management Agency.
     4
         This agency did not prepare financial statements for FY 2000. Total program costs were
         obtained from the Defense Finance and Accounting Service Indianapolis.




   Accounting officials at the Defense agencies required to prepare stand-alone
   financial statements stated that they did not include the cost of military personnel
   in their total program costs. The costs were omitted because the Defense
   agencies did not incur such costs and were not required to reimburse the
   Military Departments for the military personnel expenses. In addition, DoD
   Regulation 7000.14-R did not provide any specific instructions for reporting
   those costs.

                                                5
Reasons for not Reporting Cost of Military Personnel
Assigned to Defense Agencies
     DoD Policy. DoD has not established a requirement to report the cost of
     military personnel assigned to Defense agencies receiving appropriated funds
     because such information was not considered important or necessary in the past.
     Therefore, procedures for computing such costs have not been established.
     However, in our opinion, the use of the civilian equivalency rates for military
     personnel is an appropriate way for recognizing those costs. Other rates such as
     the Military Composite Rate and costs shown in the Future Years Defense
     Program could be used. However, the civilian equivalent rate seems to be more
     appropriate because military personnel are subject to military duties and
     responsibilities that may not be of direct benefit to the Defense agencies.

     Office of Management and Budget and DoD Guidance. Office of
     Management and Budget Bulletin 97-01 (the Bulletin), as amended, and DoD
     Regulation 7000-14.R requires reporting entities to recognize specific inter-
     entity imputed costs that include: (i) employee pensions, (ii) health, life
     insurance, and other benefits for retired employees, (iii) other post-employment
     benefits including severance related costs, and (iv) losses in litigation
     proceedings. The Bulletin also states that to ensure consistency, agencies should
     not recognize costs (other than those listed above) until the Office of
     Management and Budget provides further guidance. However, the costs of
     military personnel identified in this report are intra-entity costs for DoD, and
     would not affect costs outside the DoD. The consolidated DoD Agency-wide
     financial statements are not affected by individual Defense agencies not
     including the cost of military personnel on their financial statements.

Effect on the Military Departments and Other Defense
Organizations-General Funds Financial Statements
     The Military Departments did not provide us with the total military personnel
     assigned to all Defense agencies. Therefore, we compared the cost of military
     personnel authorized, as shown in the Future Years Defense Program, with the
     reported FY 2000 program costs shown in the Statement(s) of Net Cost for the
     General Fund of each Military Department. Table 2 shows the comparison and
     provides a rough estimate of the effect of not reporting the unreimbursed costs
     of military personnel assigned to all Defense agencies. The analysis showed
     that the total program costs of the Military Departments General Funds would
     be overstated by an estimated 0.2 to 0.4 percent. The corresponding effect of
     excluding the costs of military personnel assigned to Defense agencies could
     understate total program costs shown on the Other Defense Organizations–
     General Funds entity by 1.5 percent.




                                         6
       Table 2. Military Personnel Authorized in Non-Working Capital Fund
                 Positions at Defense Agencies Compared to Total
                         FY 2000 Reported Program Costs
                                   ($ in millions)

                                Authorized          Costs of         Total Program
            Entity              Personnel          Personnel1            Costs              Percent

Army                               4,756                $ 280          $ 87,754                0.3
Navy                               3,341                  203            94,522                0.2
Air Force                          5,367                  328            80,041                0.4
      Total                      13,464                 $ 811          $ 262,317               0.3

Other Defense Orgs.-             13,464                 $ 811          $ 53,925                1.5
 General Funds2


1
    The costs were taken from the FY 2001 Future Years Defense Program, October 2000, which is
    based on average pay from pay tables for each Military Department.
2
    The Other Defense Organizations-General Funds entity shown in the DoD Agency-wide financial
    statements include appropriated funds provided to the Special Operations Command and the
    Defense Health Program. However, military personnel and associated costs for those two
    entities are not included in the above figures. The FY 2001 authorizations for the Special
    Operations Command and the Defense Health Program, as shown in the Future Years Defense
    Program were 43,040 and 92,405, respectively. We excluded the military personnel and costs
    from our computation because the military personnel assigned to those programs are an intricate
    part of the military mission and are not really considered as separate Defense agencies. If the
    Special Operations Command and the Defense Health Program prepared stand-alone financial
    statements, the costs of military personnel assigned would represent a significant cost that should
    be shown on their financial statements.



        Table 2 shows an estimated calculation of materiality to the Statements of Net
        Cost of the Military Departments and Other Defense Organizations–General
        Funds of incorrectly including or excluding military personnel assigned to Other
        Defense Organizations. To refine this estimate, the actual number of military
        personnel assigned to each Defense agency during the year would need to be
        multiplied by the appropriate civilian equivalency rate for each grade of military
        personnel assigned. However, the information shown in Table 2 gives an
        estimate of the effect on the financial statements of the Military Departments
        and Other Defense Organizations–General Funds. The costs do not appear to
        materially affect the total program costs for each Military Department.




                                                    7
Conclusion
    Excluding the costs of military personnel assigned to Defense agencies should
    not materially affect the total costs in the DoD Agency–wide financial
    statements. However, excluding the cost of military personnel assigned to two
    of the five Defense agencies reviewed may materially affect their financial
    statements.

    Incorrectly including the cost of military personnel assigned to Defense agencies
    has a small, non-material affect on the financial statements of each Military
    Department. Ideally, such costs should be excluded from the Statement(s) of
    Net Cost for each Military Department. However, DoD guidance should at
    least require an explanatory footnote in the financial statements of each Military
    Department and for Other Defense Organizations–General Funds. This note
    would show the estimated cost of military personnel included or excluded, as
    appropriate, from the program cost data shown in the Statement(s) of Net Cost
    and the Statement(s) of Financing. The Under Secretary of Defense
    (Comptroller) should provide specific guidance to ensure additional accuracy
    and consistency in reporting.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense (Comptroller) revise
    DoD Regulation 7000.14-R, “Financial Management Regulation” to address
    the computation and reporting of the cost of military personnel assigned to
    Defense agencies. As a minimum this guidance should:

            1. Provide a standard methodology for computing the unreimbursed
    cost of military personnel assigned to Defense agencies that are required to
    prepare stand-alone financial statements.

           2. Require Defense agencies that prepare stand-alone financial
    statements to report the cost of military personnel assigned to their
    agencies.

           3. Require the unreimbursed cost of military personnel assigned to
    Defense agencies to be removed from the Military Departments’ financial
    statements and included in the financial statements for Other Defense
    Organizations–General Funds; or disclose the estimated costs of those
    military personnel in an appropriate footnote to the financial statements.

    Management Comments. The Defense Advanced Research Projects Agency
    provided unsolicited comments and suggested that Recommendation 3 be
    modified to recognize all the costs of Military personnel assigned to Defense
    agencies in the Other Defense Organizations–General Funds column of the DoD
    Agency–wide financial statements.



                                        8
    Audit Response. We incorporated additional wording in Recommendation 3 to
    clearly show that costs removed from the Military Department’s financial
    statements should be included in the financial statement of Other Defense
    Organizations–General Funds.


Management Comments Required
    The Under Secretary of Defense (Comptroller) did not comment on the report.
    Therefore, we request that the Under Secretary of Defense (Comptroller)
    provide comments on the final report.




                                      9
Appendix A. Audit Process

Scope and Methodology
    Worked Performed. We reviewed the Future Years Defense Program to
    determine the number of military personnel assigned to each Defense agency.
    We evaluated the process used by the Defense agencies required to prepare
    stand-alone financial statements to account for the costs of military personnel
    assigned to their organizations. Specifically:

           •   We obtained and reviewed financial statements or other appropriate
               financial data for the Defense agencies required to prepare stand-
               alone financial statements for FY 2000. Also, we computed the cost
               of military personnel assigned for the five Defense agencies that
               received annual appropriations. We computed the cost by
               multiplying the assigned strength as of May 2001 to the annual
               civilian equivalency rates provided by the Under Secretary of
               Defense (Comptroller).

           •   We evaluated the method that the Defense Working Capital Fund
               organizations used to reimburse Military Departments for the costs of
               military personnel assigned to their organizations.

           •   We reviewed applicable laws, policies, procedures, and regulations
               related to the computation and allocation of military personnel
               expense. We also held discussions with Defense agencies accounting
               officials responsible for the preparation and presentation of the total
               Defense agencies program costs.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act the
    Secretary of Defense annually establishes DoD–wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate goal, subordinate performance goal,
    and performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-02)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
                                       −DoD-2.5.2.).
           on financial statements. (01−




                                        10
    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Financial Management high-risk area.

    Use of Computer-Processed Data. We did not use computer-processed data to
    support the audit conclusions.

    Audit Type, Period, and Standards. We performed this financial-related audit
    from May 2001 through July 2001, in accordance with generally accepted
    Government auditing standards based on the limited objectives, scope, and
    methodology discussed in this appendix. In addition, the Inspector General,
    DoD, has been unable to obtain an opinion on our system of quality control.
    The most recent external quality control review was withdrawn on March 15,
    2001, and we will undergo a new review.

    Contact During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.

    Management Controls. We did not review the management control program
    for the Defense agencies included in this audit. The management control
    programs for those agencies will be evaluated by the independent public
    accounting firms as part of their audit of Defense agencies’ financial statements.


Prior Coverage
    No prior coverage has been conducted on the specific subject of this audit.
    However, the General Accounting Office, the Inspector General, DoD, and the
    Military Department audit agencies have conducted multiple reviews related to
    financial statement issues. General Accounting Office reports can be accessed
    on the Internet at http://www.gao.gov. Inspector General, DoD, reports can be
    accessed on the Internet at http://www.dodig.osd.mil/audit/reports.




                                        11
Appendix B. Report Distribution

Office of the Secretary of Defense
 Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)

 Department of the Army
 Auditor General, Department of the Army

 Department of the Navy
 Naval Inspector General
 Auditor General, Department of the Navy

 Department of the Air Force
 Assistant Secretary of the Air Force (Financial Management and Comptroller)
 Auditor General, Department of the Air Force

 Other Defense Organizations
 Director, Ballistic Missile Defense Organization
 Director, Defense Advanced Research Projects Agency
 Director, Defense Finance and Accounting Service
 Director, Defense Information Services Agency
 Director, Defense Logistics Agency
 Director, Defense Security Service
 Director, Defense Threat Reduction Agency


 Non-Defense Federal Organization
 Office of Management and Budget




                                           12
Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                        13
Defense Advanced Research Projects Agency
Comments




                  15
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard. B. Bird
Marvin L. Peek
Hoa H. Pham
Modupe M. Akinsika
Andrea L. Hill
Stephen G. Wynne
